             U.S. Department of Agriculture
                Office of Inspector General




FSA Farm Loan Security




                     Audit Report 03601-18-Ch
                                  August 2010
                            U.S. Department of Agriculture
                             Office of Inspector General
                               Washington, D.C. 20250



DATE:          August 10, 2010

REPLY TO
ATTN OF:       03601-18-Ch

TO:            Jonathan W. Coppess
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Acting Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                for Audit

SUBJECT:       FSA Farm Loan Security


This report presents the results of the subject audit. Your written response to the official
draft report is included at the end of the report. Excerpts from the response and the
Office of Inspector General’s (OIG) position are incorporated into the relevant sections
of the report. Based on the information in your written response, we have reached
management decision on all five recommendations. Please follow your internal agency
procedures in forwarding final action correspondence to the Office of the Chief Financial
Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the review.
Table of Contents

Executive Summary .................................................................................. 1
Background & Objectives ........................................................................ 4
  Background ............................................................................................ 4
  Objectives .............................................................................................. 5
Section 1: FSA Needs to Strengthen Loan Servicing Efforts ............... 6
  Finding 1: FSA Loan Collateral Enforcement Actions Need
  Improvement .......................................................................................... 6
        Recommendation 1 ........................................................................ 10
        Recommendation 2 ........................................................................ 10
        Recommendation 3 ........................................................................ 11
  Finding 2: Loan Collateral Inspections Were Not Always Performed
  .............................................................................................................. 11
        Recommendation 4 ........................................................................ 12
  Finding 3: Loan Teams Did Not Complete Annual Assessments
  and Yearend Analyses......................................................................... 13
        Recommendation 5 ........................................................................ 15
Scope and Methodology ........................................................................ 16
Abbreviations .......................................................................................... 18
Exhibit A: Summary of Loan Reviews .................................................. 19




Audit Report 03601-18-Ch                                                                                        1
FSA Farm Loan Security

Executive Summary
This report presents the results of our audit of the Farm Service Agency’s (FSA) controls and
oversight of farm loan security (hereinafter referred to as loan collateral) for direct operating
loans. Through its operating loans, FSA provides temporary financial assistance to farmers and
ranchers who are unable to secure commercial credit at reasonable rates and terms. Our
objective was to assess FSA’s control and oversight of loan collateral to ensure that its operating
loans were adequately secured. Specifically, we assessed agency controls to ensure that loan
collateral inspections were conducted as required, that borrowers were properly maintaining loan
collateral, that required annual assessments of borrowers’ farm operations were properly
completed by FSA personnel, and that appropriate servicing and enforcement actions were taken
when borrowers sold or otherwise disposed of loan collateral.

In the 3 States 1 we visited, FSA maintained a portfolio of over 8,200 direct operating loans with
a total obligation value of more than $332 million as of May 31, 2008. Our audit found that, for
the 71 loans we reviewed and the site visits we conducted, FSA’s direct operating loans were
adequately secured. This was due to FSA’s requirement to over-collateralize loans to ensure
FSA’s interests were protected, when possible. However, we found unauthorized removals of
loan collateral by 18 of the 71 borrowers we visited (25 percent). 2 We also identified loan
servicing issues that needed to be corrected by FSA officials in order to protect FSA’s interests
as described below. The uncorrected loan servicing issues could encourage borrowers to not
follow FSA requirements when disposing of loan collateral. This, in turn, could reduce FSA’s
assurance that its loans are adequately secured.

•     We found that FSA county officials did not always take required enforcement actions, such
      as placing the borrowers in non-monetary default status, when they became aware that
      borrowers had sold or otherwise disposed of loan collateral without FSA’s knowledge or
      approval. For instance, FSA personnel at the county offices post-approved the loan collateral
      dispositions in 17 of the 18 3 unauthorized disposition cases identified, even though 7 of the
      borrowers had not met the regulatory requirements needed to justify this action.

•     FSA county officials did not perform required inspections of loan collateral to verify the
      borrowers’ possession of property listed on the security documents for 15 of the 71 sample
      loans reviewed. We found loan collateral missing for 6 of these 15 loans. However, this
      missing collateral did not affect the security of the loans because the loans were over-
      collateralized. County officials stated they either did not have time to conduct the reviews or
      did not believe the borrowers were at risk to default.



1
    Arkansas, Kentucky, and Michigan.
2
    In each of 12 of the cases of unauthorized disposition, the items disposed of had a value of less than $3,000.
3
    One of the direct operating loans selected and reviewed had recently been the subject of an OIG investigation. The case had been adjudicated,
    and the borrower found guilty of converting FSA loan collateral. The loan was retained as part of our random sample so we could confirm the
    status of the remaining collateral property.


Audit Report 03601-18-Ch                                                                                                                      1
•   FSA county officials had not completed required annual assessment reviews of borrowers’
    farm operations for 13 of the 71 loans reviewed. Additionally, in eight cases the FSA county
    officials had not properly completed the more extensive yearend analyses that were required
    due to the borrowers’ circumstances (such as a distressed financial condition). FSA county
    personnel attributed this to inadequate staff or to misinterpretations of the regulatory
    requirements.

•   FSA’s oversight review processes did not disclose post-approvals of unauthorized
    dispositions of loan collateral for borrowers who were not eligible for such servicing, as we
    found during the audit. The results of District Director reviews are not accumulated or
    analyzed on a national basis to identify the extent of deficiencies noted by the reviews. The
    County Operations Review Program did not disclose post-approvals of unauthorized
    dispositions as a finding for fiscal year 2008, and the 27 Farm Loan Program Risk
    Assessment reports we analyzed disclosed that the issue of post-approvals of unauthorized
    dispositions were not addressed during the reviews.

One of our objectives was to evaluate whether loan collateral released for essential family living
and farm operating expenses was made in accordance with the regulations. We reviewed
17 loans with a total of 35 releases of loan collateral for essential family living and farm
operating expenses. Our audit found that FSA county personnel properly implemented the
requirements, and we are not reporting any exceptions in this area.

    Recommendation Summary

    We recommended that FSA remind field offices to document shortages of loan collateral
    found during farm visits and properly follow post-approval procedures. We also
    recommended that FSA officials (1) ensure appropriate enforcement actions are implemented
    upon discovery of unauthorized loan collateral dispositions; (2) design and implement a
    system to record all unauthorized dispositions found and, in the interim, instruct county
    offices to maintain manual logs; (3) strengthen the oversight review processes to ensure post-
    approvals of unauthorized dispositions are identified and evaluated; and (4) establish controls
    to ensure the performance of required loan collateral inspections, borrower assessments, and
    yearend analyses.

    Agency Response

    In their response dated June 30, 2010, FSA officials agreed with the findings and
    recommendations contained in this report. FSA officials stated that District Directors would
    be given responsibility for overseeing cases involving unauthorized dispositions of loan
    collateral, and would be responsible for reviewing all post-approvals or borrower
    repayments. FSA handbook revisions to implement additional reporting and tracking of
    unauthorized dispositions of collateral, including oversight of post-approvals and
    enforcement actions, would be implemented by June 30, 2010. While a manual system will
    be established in the interim, FSA officials also stated that a function for tracking
    unauthorized dispositions of collateral will be incorporated into FSA’s Direct Loan Servicing
    automated system in 2013, as part of its Phase III implementation. This system will also be

Audit Report 03601-18-Ch                                                                         2
   used to track the performance of required collateral inspections, borrower assessments, and
   yearend analyses, with oversight to be provided by the District Directors.

   We have incorporated applicable portions of the response, along with our position, after each
   recommendation. FSA’s response, in its entirety, is included at the end of this report.

   OIG Position

   We agree with the actions FSA has taken, or has underway, in response to our
   recommendations. We have reached management decision on all five of the
   recommendations.




Audit Report 03601-18-Ch                                                                         3
Background & Objectives

Background
The Farm Service Agency (FSA) makes direct loans to family farmers and ranchers to purchase
farmland and finance agricultural production. FSA also guarantees loans made by banks to
family farmers and ranchers to similarly purchase farmland and finance agricultural production;
however, we did not review guaranteed loans as part of this audit. FSA’s Farm Loan Programs
(FLP) are designed to help family farmers who are temporarily unable to obtain private
commercial credit. Eligibility requirements for a direct loan include demonstrating the
managerial ability needed to succeed in farming, being unable to obtain credit elsewhere, having
an acceptable credit history, and not being delinquent on any Federal debt.

FSA’s direct loans include Farm Ownership Loans (FO) and Operating Loans (OL). Eligible
applicants may obtain an FO or OL up to a maximum indebtedness of $300,000. The maximum
repayment term is 40 years for an FO. In general, FO funds may be used to purchase farm real
estate, enlarge an existing farm, construct new farm buildings and/or improve structures, and
improve the environmental soundness of the farm. The repayment term may vary for OLs, but
typically will not exceed 7 years for intermediate-term purposes. Annual OLs are generally
repaid within 12 months or when the commodities produced are sold. In general, loan funds may
be used for normal operating expenses, machinery and equipment, real estate repairs, and
refinancing debt.

Borrowers are required to maintain all loan collateral pledged for FSA loans. 4 FSA officials are
required to inspect the loan collateral periodically. The purpose of the inspection, which must be
done at least once every 2 years for direct OLs and at least once every 3 years for direct FOs, is
to confirm that the borrower retains possession of all the property listed in the security
instrument and that it is being properly maintained. At inspection, FSA officials are also to
update the security instrument to ensure it reflects the actual property securing the debt. All
inspections must be recorded in the borrower’s case file. 5

If a borrower disposes of loan collateral without FSA approval, or misuses the sale proceeds, it is
considered an unauthorized disposition. The borrower must either make restitution to FSA or
provide the necessary information to enable FSA to consider post-approval of the disposition
within 30 days of agency notification. 6 FSA can post-approve these dispositions of loan
collateral provided that specific requirements are met. 7 The failure of a borrower to resolve a
first unauthorized disposition, or a second unauthorized disposition whether resolved or not,
constitutes a non-monetary default. A non-monetary default may adversely impact the
borrower’s future eligibility for FSA loans and programs and could result in civil or criminal
actions. 8


4
    7 Code of Federal Regulations (CFR) § 765.202(b), dated January 1, 2008.
5
    FSA Handbook 4-FLP, Amendment 1, paragraph 96, dated December 31, 2007.
6
    7 CFR § 765.304, dated January 1, 2008.
7
    FSA Handbook 4-FLP, Amendment 1, paragraph 182, dated December 31, 2007.
8
    7 CFR § 765.304, dated January 1, 2008.


Audit Report 03601-18-Ch                                                                         4
FSA is also responsible for providing credit counseling and supervising direct loan borrowers
through an assessment of each borrower’s farming operations. The initial assessment is
completed after a borrower, who is not currently indebted to FSA, is determined eligible for a
direct loan. This assessment determines the loan applicant’s financial condition, organizational
structure, management strengths and weaknesses, appropriate levels of agency oversight, credit
counseling needs, and training needs. 9

This initial assessment is to be reviewed at least annually to determine the borrower’s progress
and to evaluate the effectiveness of FSA’s supervisory assistance. This annual review must
address any significant changes to the borrower’s farming operation, expenses, or financial
condition that have occurred since the most recent assessment or annual review. 10 FSA may also
conduct a yearend analysis, at its discretion. However, FSA is required to conduct the yearend
analysis if the borrower has received either a direct loan, loan collateral subordination, or
primary loan servicing action within the last year, is financially distressed or delinquent, has a
loan deferred, or is receiving a limited resource interest rate on any loan. 11 The yearend analysis
identifies and evaluates significant changes in the borrower’s operations, compares actual
performance to projections, and analyzes how performance can be improved. The yearend
analysis provides an opportunity for borrowers and FSA to discuss and evaluate a borrower’s
financial and production performance, progress toward goals, effectiveness of operational
management, and FSA supervision and oversight.

As needed, FSA may release “normal income security” for “essential family living and farm
operating expenses” under certain conditions. FSA Handbook 4-FLP defines “essential family
living and farm operating expenses,” 12 “normal income security,” 13 and “basic security.” 14
Proceeds from the sale of “basic security” may not be used for any family living or farm
operating expenses. These proceeds are to be used to repay the loan or to purchase property
better suited to the borrower’s needs if FSA acquires a lien on the purchased property.

Objectives
The objective of the audit was to assess FSA’s control and oversight of farm loan collateral to
ensure that its operating loans were adequately secured. Specifically, we assessed controls to
ensure that inspections were conducted as required, unauthorized dispositions of loan collateral
were properly dealt with, and annual assessments of borrowers’ operations were properly
completed. We also assessed the controls over releases of loan collateral for essential family
living and farm operating expenses to ensure they were made in proper amounts and were
supported, with particular focus on those releases made for the following year’s operating
expenses.

9
     FSA Handbook 1-FLP (Revision 1), Amendment 1, paragraph 221, dated December 31, 2007.
10
     FSA Handbook 1-FLP (Revision 1), Amendment 1, paragraph 223, dated December 31, 2007.
11
     7 CFR § 761.105, dated January 1, 2008.
12
     “Essential family living and farm operating expenses” are those that are basic, crucial, and indispensable; are determined by FSA based on the
     borrower’s operations; and include, but are not limited to, essential household operating expenses, health and medical expenses, and specified
     farm operating expenses such as feed for animals.
13
     “Normal income security” is defined as all security that is not considered “basic security” and includes property covered by FSA liens that is
     sold in conjunction with the operation of the farm (i.e., crops, livestock, poultry products, etc.).
14
     “Basic security” includes all farm machinery, equipment, vehicles, breeding livestock, and real estate.


Audit Report 03601-18-Ch                                                                                                                        5
Section 1: FSA Needs to Strengthen Loan Servicing Efforts

Finding 1: FSA Loan Collateral Enforcement Actions Need
           Improvement
Our review of 71 direct OLs in 3 States disclosed that 18 of 71 borrowers we visited disposed of
FSA loan collateral without the required prior approval. We also found that loan servicing
needed improvement in order to protect FSA’s interests. We found that FSA county personnel
did not always take required enforcement actions when they became aware that borrowers had
disposed of loan collateral but instead routinely post-approved unauthorized dispositions by
borrowers who did not qualify, and who should instead have been the subject of enforcement
actions by FSA. If uncorrected, these servicing issues could encourage borrowers to not follow
FSA requirements when disposing of loan collateral, which in turn could reduce FSA’s assurance
that its loans are adequately secured.

Improper Servicing Actions by FSA County Office Personnel

In our visits to 36 county offices in 3 States, we found that FSA personnel routinely post-
approved borrowers’ unauthorized loan collateral dispositions. FSA requires that borrowers
meet certain conditions before such approvals are issued. We found that FSA county office
personnel did not follow this requirement because they believed that even after the unauthorized
dispositions, the loans were still adequately collateralized and FSA’s security interests were
protected. In all, we and/or FSA discovered unauthorized dispositions of loan collateral on 18 of
71 randomly-selected OLs we reviewed, 17 of which were post-approved by county office
personnel. 15 We determined that the borrowers’ actions in 7 of the 17 instances did not meet the
criteria for post-approvals and should instead have caused enforcement actions to be taken. 16
While FSA’s policy of obtaining additional collateral on its loans protected its security interest
on the 17 disposition cases we reviewed, this practice of post-approving all unauthorized
dispositions could encourage other borrowers to fail to follow FSA requirements when making
dispositions of loan collateral. This, in turn, could reduce FSA’s assurance that its nationwide
loan portfolio is backed by sufficient collateral to ensure the agency’s security interest.

Regulations require borrowers to maintain all collateral securing their loans 17 or to obtain FSA’s
consent before disposing of loan collateral. 18 If a borrower disposes of loan collateral without
FSA’s approval or misuses the proceeds of that disposal, the borrower must either make
restitution to FSA or provide information to enable FSA to consider post-approval within
30 days of FSA becoming aware of the disposition. 19 Loan officials may post-approve the
disposition provided that the borrower (1) remits the proceeds from the sale of the loan collateral


15
     One of the direct operating loans selected and reviewed had recently been the subject of an OIG investigation. The case had been adjudicated
     and the borrower found guilty of converting FSA loan collateral. The loan was retained as part of our random sample so we could confirm the
     status of the remaining collateral property.
16
     Enforcement actions include placing the borrower in non-monetary default status, which may adversely affect his or her eligibility to
     participate in FSA programs and can also result in civil or criminal penalties, according to 7 CFR 765.304(b), dated January 1, 2008.
17
     7 CFR § 765.202(b), dated January 1, 2008.
18
     7 CFR § 765.302(d), dated January 1, 2008.
19
     7 CFR § 765.304, dated January 1, 2008.


Audit Report 03601-18-Ch                                                                                                                      6
to FSA or (2) uses the proceeds to purchase property better suited to the borrower’s operations
and in which FSA will acquire a lien at least equal in value to that held on the disposed loan
collateral. 20

At a borrower’s first unauthorized disposition, there are no consequences if the requirements for
post-approval are met. However, failure to meet these requirements places the borrower in non-
monetary default status, which may adversely affect his or her eligibility to participate in FSA
programs and can also result in civil or criminal penalties. If a borrower is found to have
committed a second unauthorized disposition, FSA is required to place the borrower in non-
monetary default status. 21

We randomly selected 71 direct OLs in 3 States and made farm visits to the borrowers,
accompanied by FSA county officials. We found 18 cases where borrowers did not have all of
the loan collateral listed on security documents and had failed to report the disposition of the
loan collateral to FSA county personnel. Items found missing included loan collateral such as
tractors and wagons. The borrowers in these cases told us they had either forgotten to report the
dispositions or were not aware they had to report them.

We referred 17 of these 18 borrowers (one borrower had already been the subject of an OIG
investigation) to the applicable county officials for enforcement action, but in each case FSA
personnel post-approved the unauthorized dispositions of loan collateral. In reviewing the
circumstances of the dispositions, we agreed that in 10 of the 17 cases the post-approvals
appeared to be justified because the borrowers had purchased equipment better suited to their
operations or paid FSA the proceeds after the unauthorized disposition was discovered. FSA
county personnel believed that the new items purchased with the sales proceeds would serve as
loan collateral for the operating loans even when, as happened in one case, FSA had to take a
subordinate security position because the new item was purchased using loan funds from a
source other than FSA. 22

In the remaining seven cases, however, we disagreed with FSA’s determinations to post-approve
the dispositions because the borrowers failed to meet regulatory requirements. In these cases,
according to the borrowers’ case files, the proceeds from the dispositions were neither remitted
to FSA nor used to purchase items better suited to the borrower’s operation in which FSA would
have a security interest. FSA county officials stated that in all of these cases, the loans had been
over-collateralized because of FSA’s requirement to take all available collateral as loan
security. 23 As a result, they determined that FSA’s security position was not jeopardized and
there was no need for further action against the borrower. However, the regulations do not cite
this among the criteria for determining whether or not a post-approval is justified. We discussed
this issue with FSA officials at the three State offices we visited. The officials concurred that
borrowers who commit unauthorized dispositions of loan collateral should not be given post-
approvals unless they meet the requirements outlined in the regulations.

20
     FSA Handbook 4-FLP, Amendment 1, paragraphs 182 and 163, dated December 31, 2007.
21
     7 CFR § 765.304(b), dated January 1, 2008.
22
     We did not take exception to this because FSA began taking appropriate action upon discovery of the disposition. In response to FSA’s
     actions, the borrower paid FSA in full within 30 days.
23
     7 CFR § 764.103, dated January 1, 2008.


Audit Report 03601-18-Ch                                                                                                                     7
During interviews with FSA county personnel, we also found that they could not always be
certain whether a borrower who had disposed of loan collateral without authorization may have
committed previous unauthorized dispositions, which would require servicing the borrower for
non-monetary default. FSA lacks an automated system to track unauthorized dispositions, and
none of the county offices had implemented a system for recording and tracking this information
for each borrower. Other than manually going through the borrower’s case file(s), which could
be voluminous for borrowers who have had relationships with FSA going back many years, FSA
had no way to identify any prior occurrences. On one of our borrower farm visits, for instance,
we found that a cultivator listed as loan collateral was missing. According to the borrower, this
was not a recent disposition as it had actually been sold in 2002. FSA personnel could not locate
the borrower’s loan file from that year and were unable to determine whether this disposition had
been approved or why the cultivator had not been removed from FSA’s loan security agreement.
Without a system to record and track unauthorized dispositions, FSA cannot reliably determine
whether long-time borrowers have histories of unauthorized dispositions that would constitute a
non-monetary default, which could adversely impact future requests for FSA assistance and
could result in civil or criminal action. 24

We discussed these issues with FSA Headquarters officials, who likewise stated that county
officials should not post-approve unauthorized dispositions unless the regulatory requirements
have been met, even if the borrower still has enough collateral to secure FSA’s loan position.
They agreed that the agency needs to improve its ability to track whether borrowers have
histories of noncompliance that might affect current servicing, enforcement, or future eligibility
decisions. They stated that FSA is working on a new system that could incorporate such a
feature in the future.

Oversight Processes Need Improvement

FSA utilizes a system of oversight reviews and assessments to maintain the efficiency and
integrity of its programs. We identified three of these that could be expected to detect
unauthorized dispositions of loan collateral, as specified below.

•      As the Farm Loan Manager’s first-line supervisor who manages the FLP activities, it is
       incumbent upon each District Director (DD) to monitor program delivery to ensure
       compliance with applicable requirements. The DD oversight process provides a consistent
       reporting format and a means by which DDs can monitor and follow up on actions taken by
       county office staff. 25 According to an FSA Headquarters official, DDs are to annually
       review county offices’ accounting for loan collateral security. This review is based on a
       sample of loans. If a sampled loan folder includes a documented case of an authorized or
       unauthorized disposition, the DD should review the circumstances of the disposition and the
       use of any sale proceeds. FSA Headquarters officials’ oversight responsibilities for DD
       reviews are limited to ensuring that they are performed; they do not include accumulating or
       analyzing the results of DD reviews on a national basis to identify the extent of deficiencies
       noted by the reviews.

24
     FSA Handbook 4-FLP, Amendment 1, paragraph 183, dated December 31, 2007.
25
     FSA Handbook 1-FLP (Revision 1) Amendment 18, paragraph 441, dated December 19, 2008.


Audit Report 03601-18-Ch                                                                            8
•      The Farm Loan Program Risk Assessment (FLPRA) is the primary tool FSA’s FLP staff uses
       for ongoing reviews and oversight of field office operations. FLPRA evaluates the FLP
       using a risk-based approach, and its objectives include ensuring compliance with applicable
       requirements. FSA’s national office is required to review 10-12 States per year, and each
       State office is required to review at least one-third of its FLP service centers annually. Each
       service center must be reviewed at least once every 5 years. 26 Our review of 27 completed
       FLPRA reviews disclosed that post-approvals of unauthorized dispositions were not
       addressed.
•      The County Operations Review Program (CORP) was implemented to conduct targeted
       reviews of high risk programs and activities in field offices and to conduct followup reviews
       to ensure corrective actions were properly made and continued. In fiscal year (FY) 2008, a
       total of 1,138 CORP reports were issued. The reports only address “common findings,”
       defined as procedural errors applicable to an operation or program in at least 15 percent of
       the reports issued for that operation or program in a fiscal year. Post-approvals of
       unauthorized dispositions were not included as a common finding.

Overall, we analyzed the 27 FLPRA State reviews performed by FSA Headquarters staff from
FYs 2005 to 2008 (those completed through April 2008). We also reviewed the nationwide
CORP Report for FY 2008, issued in December 2008. We found that none of the reviews had
disclosed the problem of unsupported post-approvals of unauthorized loan collateral which our
own visits disclosed. While we did not have access to the FSA on-line system to review DD
reports, we did assess the DD oversight review instructions. DDs are to coordinate and plan
oversight review visits with State office officials, and to report any apparent problems that may
require immediate attention to the appropriate State office official. Reporting of oversight
review results is to be completed quarterly using FSA’s on-line District Director Oversight
Reporting System (DDORS). DDs are responsible for using DDORS to document specific
findings for each case file or operational file reviewed, to complete all quarterly review items for
each county office, and to submit oversight reports. FSA State Executive Directors (SEDs) are
to ensure that timely DD oversight reviews are completed in DDORS. Farm Loan Chiefs (FLC)
are required to review DDORS reports, discuss concerns with the DDs and the SEDs, and to
fully document actions taken to remedy identified deficiencies. 27 We interviewed FSA
Headquarters officials regarding these reviews, and they agreed to revise the DD review
instructions to include evaluation of the handling of unauthorized loan collateral dispositions,
along with the appropriate followup. We believe this would be a practical way of addressing the
improper post-approval of unauthorized dispositions.

In all, over 25 percent of our randomly-sampled borrowers had disposed of loan collateral
without prior FSA authorization and, based on this, we believe that these unauthorized
dispositions are not rare occurrences. We also concluded that FSA’s policy of over-
collateralizing its loans is effective in protecting the agency’s security interest, since none of the
unauthorized removals we found had resulted in FSA being under-secured. However, other


26
     FSA Handbook 1-FLP (Revision 1) Amendment 1, paragraph 401, dated December 31, 2007.
27
     FSA Handbook 1-FLP (Revision 1), Amendments 18 and 34, dated December 19, 2008, and December 29, 2009, respectively.


Audit Report 03601-18-Ch                                                                                                    9
borrowers could be encouraged to sell or otherwise dispose of loan collateral if they become
aware that they can do this with no fear of consequences from FSA.

We believe that FSA needs to remind its county officials to ensure that appropriate actions are
taken when unauthorized removals are identified, whether or not they appear to directly affect
FSA’s security position. In addition, we believe that FSA should implement a means of tracking
such occurrences, so that county personnel can readily identify cases where borrowers’ past
histories constitute non-monetary default and require different servicing actions. We also
believe that FSA should strengthen its oversight processes to include reviews of post-approvals
of unauthorized loan collateral dispositions, and that the processes should implement followup
procedures to ensure compliance with the applicable criteria in order to mitigate future non-
compliance. FSA Headquarters officials agreed that tracking unauthorized dispositions and
strengthening DD reviews are viable options for improving the FLP.

   Recommendation 1

   Remind field offices to document shortages of loan collateral found during farm visits and to
   properly follow post-approval procedures.

   Agency Response

   FSA officials agreed with this recommendation. The agency will require Farm Loan
   Managers to report all discoveries of unauthorized dispositions to DDs, who have been made
   responsible for ensuring all required regulations are followed. FSA officials stated changes
   would be made in the appropriate handbooks to address these revisions by June 30, 2010, and
   that a notice will be issued to DDs and Farm Loan Managers to call their attention to the
   revisions.

   OIG Position

   We accept management decision for this recommendation.

   Recommendation 2
   Design and implement an automated system capable of recording unauthorized dispositions
   for tracking purposes, or incorporate this capability into an existing system. In the interim,
   require county officials to maintain a manual log of all cases where unauthorized dispositions
   are disclosed by inspections or other means.

   Agency Response

   FSA officials agreed with this recommendation and stated this function would be
   incorporated into the Direct Loan Servicing automated system in 2013. In the interim, FSA
   handbook revisions to be issued by June 30, 2010, will establish a manual system to log all
   cases where unauthorized dispositions are disclosed. A notice will be issued to DDs and
   Farm Loan Managers to call their attention to these changes.


Audit Report 03601-18-Ch                                                                       10
       OIG Position

       We accept management decision for this recommendation.

       Recommendation 3

       Strengthen the oversight review process to ensure that post-approvals of unauthorized
       dispositions are being identified and reviewed to evaluate whether these post-approvals are
       justified. Implement a followup process to ensure that any required corrective actions are
       taken.

       Agency Response

       FSA officials concurred with this recommendation and stated that handbook revisions, which
       are expected to be issued by June 30, 2010, will require DDs to review post-approvals for
       compliance with applicable procedures. A notice will be issued to DDs and Farm Loan
       Managers to call their attention to these changes.

       OIG Position

       We accept management decision for this recommendation.

Finding 2: Loan Collateral Inspections Were Not Always Performed
We found that FSA had not conducted the required loan collateral inspections for 15 of the
71 borrowers we visited. Although these inspections are required to be made annually unless
justified in the borrower’s file, at the time of our visits these borrowers had gone without
inspections for periods ranging up to 30 months without documented justification. FSA county
personnel attributed this to their workloads and to other priorities. We found that unauthorized
dispositions of loan collateral had occurred in 6 of these 15 cases, which might have been
identified earlier if inspections had been made on the required basis.

Loan collateral for direct OLs must be inspected annually, except in cases where the authorized
official has justified in the annual review of the assessment or yearend analysis of the borrowers’
operations that no undue risk exists. However, all loan collateral for direct OLs must be
inspected at least every 2 years. The purposes of the inspections are to (1) verify that the
borrowers possess all property listed in the security agreement, (2) determine that the borrowers
are properly maintaining the loan collateral, and (3) update the security agreements, as
necessary. 28

For one sampled loan, for instance, FSA officials had not performed an inspection in over
30 months. For another sampled loan, we found that 25 months had elapsed since FSA
performed a loan collateral inspection. In neither case did the borrower’s assessment or running
record in the loan file justify not conducting a yearly inspection, which would then have

28
     FSA Handbook 4-FLP, Amendment 1, paragraph 96C, dated December 31, 2007.


Audit Report 03601-18-Ch                                                                         11
warranted an inspection only every 2 years. In both instances, our farm visits, accompanied by
FSA county officials, found that the borrowers disposed of the loan collateral without FSA’s
knowledge or approval. Overall, we found unauthorized dispositions at 6 of these 15 cases.

FSA county officials stated that their workload of making and servicing loans, as well as limited
staffing, prevented them from always completing loan collateral inspections. One FSA county
office employee told us that loan teams did not always complete inspections each year because
each county office was responsible for servicing a large geographic area and did not always have
adequate staff to complete inspections. Other FSA personnel stated that they put a lower priority
on performing inspections of borrowers who had consistently made timely loan payments and
with whom they had not had problems in the past, but had not documented these determinations
in the borrowers’ loan files.

FSA State office officials stated that they were aware that inspections were not always performed
as required, and that the idea of setting priorities for conducting inspections would be helpful, by
allowing for borrowers who needed more frequent checks to receive them. At one State office,
the FLC stated that he believed that performing all required inspections was not too much to ask
of the farm loan officials and that, even though more time is spent on making new loans,
servicing is just as important as loan making.

   Recommendation 4

   Establish controls to ensure that FSA county officials perform required annual inspections of
   loan collateral.

   Agency Response

   FSA officials concurred with this recommendation and stated that the ability to track annual
   inspections of loan collateral to determine compliance was implemented in the Direct Loan
   Servicing automated system in April 2010. In cases where FSA personnel determine and
   document that insufficient resources (personnel or travel funding) are available to ensure
   completion of required annual inspections, FSA will prioritize their completion based on risk
   and will document the basis for each low-risk priority determination. The appropriate FSA
   handbook will be revised by September 1, 2010, to implement these changes.

   Subsequent to our receipt of the FSA written response, dated June 30, 2010, we sought
   clarification from FSA regarding the controls established to ensure timely completion of the
   required inspections of loan collateral. On July 12, 2010, an FSA official explained that
   beginning in April 2010, the Direct Loan Servicing system now provides county office staffs
   with monthly task calendars that include any required inspections of loan collateral. If these
   inspections cannot be completed because of the lack of resources, county office staffs are
   required to prioritize and complete these as outlined in the written response. To provide the
   necessary control, DDs are responsible for reviewing the county office staffs’ actions during
   their annual operations reviews.

   OIG Position

Audit Report 03601-18-Ch                                                                        12
       We accept management decision for this recommendation.

Finding 3: Loan Teams Did Not Complete Annual Assessments and
           Yearend Analyses
For 13 of the 71 OLs we reviewed, we found that FSA county officials did not annually review
the borrowers’ farm assessments as required. The purposes of these reviews are to update the
operations and goals outlined in the initial assessment, completed after a new applicant is
initially determined eligible for a loan, and to document the borrower’s progress toward meeting
those goals. In addition, FSA officials did not timely perform the more detailed yearend
analyses (see below for assessment differences) for 8 of the 21 borrowers who had required
them. 29 In some cases, FSA personnel attributed this to a lack of sufficient staff, while others
stated that they had misunderstood the regulatory requirement for FSA personnel to conduct the
reviews. Without making timely reviews and analyses of the borrowers’ assessments, FSA
officials may not always be aware of changes to a borrower’s situation that could necessitate
different loan making or servicing decisions. In some instances, the results of such reviews
could warn FSA of situations which, if uncorrected, could eventually lead to defaults on a
borrower’s OLs.

The farm assessment describes the borrower’s operations and evaluates the goals for the
operation, the adequacy of real estate and other property used to conduct the farming operation,
historical performance, the farm operating plan, the supervisory plan, and the training plan.
Federal regulations 30 require FSA to review each borrower’s farm assessment at least annually to
update any progress made. The review can be in the form of an office visit, field visit, letter,
telephone conversation, or yearend analysis, as determined by the agency. The FSA Handbook 31
reiterates this requirement, stating that the annual review must address any significant changes to
the borrower's farming operations, expenses, or financial condition that have occurred since the
most recent annual review and assessment update was completed. It also serves as a gauge for
measuring the borrower’s progress and the effectiveness of FSA assistance. During the annual
assessment, FSA officials evaluate each borrower and determine if the borrower requires a
yearend analysis.

The yearend analysis is to identify and evaluate significant changes in the borrower’s operations,
compare actual performance to projections and calculate the variances, analyze how performance
can be improved, and prepare an updated farm operating plan. 32 The yearend analysis must be
performed in as much detail as the farm operating plan, 33 which was prepared by the borrower
and documents the farm operation’s financial position, cash flow, and repayment ability. 34 The
farm operating plan includes actual and projected income and expenses; assets and liabilities;


29
     A yearend analysis is required for borrowers who received any direct loan, loan collateral subordination, or primary loan servicing within the
     last year, is financially distressed or delinquent, has a loan deferred, or is receiving a limited resource interest rate on any loan, according to
     7 CFR § 761.105, dated January 1, 2008.
30
     7 CFR § 761.103(d), dated January 1, 2008.
31
     FSA Handbook 1-FLP (Revision 1) Amendment 1, paragraph 223, dated December 31, 2007.
32
     FSA Handbook 1-FLP (Revision 1) Amendment 1, paragraph 263, dated December 31, 2007.
33
     FSA Handbook 1-FLP (Revision 1) Amendment 1, paragraph 261, dated December 31, 2007.
34
     FSA Handbook 1-FLP (Revision 1) Amendment 1, paragraph 241, dated December 31, 2007.


Audit Report 03601-18-Ch                                                                                                                            13
and borrower training. 35 The yearend analysis may be performed at FSA’s discretion, except
that it must be performed if the borrower has received any direct loan, loan collateral
subordination, or primary loan servicing action within the last year; is financially distressed or
delinquent; has a loan deferred; or is receiving a limited resource interest rate on any loan. 36
According to the FSA Handbook, 37 the yearend analysis provides an opportunity for the
borrower and FSA to discuss and evaluate a borrower’s financial and production performance,
progress toward goals, effectiveness of operational management, and FSA supervision and
oversight. It also provides an opportunity for FSA to modify the plan of supervision and to
address other changes in the borrower’s operations or financial situation.

We found that FSA county officials did not conduct required annual assessment reviews for
13 (18 percent) of the 71 loans reviewed, nor did they conduct yearend analyses for the 8 of
21 (38 percent) borrowers for whom these analyses were required. We found various reasons for
this. For instance, personnel in one county office misinterpreted the requirements 38 for the
yearend analyses and mistakenly attempted to prepare one for every borrower in the county
instead of limiting them to those instances where they were required or deemed necessary. As a
result, they performed analyses for some borrowers that did not need them, while at the same
time failing to do others that were required. Personnel in another FSA county office stated that
they did not have adequate staff to complete the required assessments and analyses. In a third
instance, county personnel stated that they performed the assessments but failed to document
them in the loan files.

Officials at the three State offices visited stated that they were aware of this servicing deficiency,
but that staffing shortages had created known servicing deficiencies, such as annual assessments,
yearend analyses, and loan collateral inspections not being performed as required. One FLC
stated that he believed the farm loan team members are not completing enough loan servicing,
and that servicing is just as important as making new loans even though more time is spent on
making new loans. Another FLC mentioned that the FSA State office personnel were planning
on conducting State-wide training based on the deficiencies noted during our audit.

Our review of the 27 FLPRA reviews of State offices performed by FSA Headquarters officials
between FYs 2005 and 2008, disclosed that annual review and assessment updates were not one
of the issues addressed as a deficiency. Seven of the 27 FLPRA reviews did disclose that
yearend analyses were not performed before the required dates or were not performed at all.
However, there was a lack of initiated or planned corrective actions by the States where the
problems were acknowledged. FSA Headquarters officials were aware that yearend analyses
were not performed as required, but admitted that staffing levels do not always enable everything
to be performed as required.

The FY 2008 CORP Report did not disclose findings related to annual assessment reviews and
updates or yearend analyses. The FYs 2006 and 2007 combined CORP Report, issued April


35
     FSA Handbook 1-FLP (Revision 1) Amendment 1, Exhibit 15, dated December 31, 2007.
36
     7 CFR § 761.105, dated January 1, 2008.
37
     FSA Handbook 1-FLP (Revision 1), Amendment 1, paragraph 261, dated December 31, 2007.
38
     FSA Handbook 1-FLP (Revision 1), Amendment 1, paragraph 263, dated December 31, 2007.


Audit Report 03601-18-Ch                                                                          14
2008, indicated that assessments were not completed when required. According to this CORP
Report, which summarized the 2,172 individual CORP Reports FSA issued in FY 2006 and
FY 2007, this deficiency was noted in 28 percent of the individual county reports issued in
FY 2006 and in 16 percent of the individual reports issued in FY 2007.

The timely completion of annual assessment reviews and yearend analyses helps loan teams
better manage their loan portfolios and assist borrowers to meet their loan objectives and goals.
Without this oversight, FSA officials may not be aware of changes in borrower operations that
could adversely impact the financial success of the borrower.

   Recommendation 5

   Establish controls to ensure that annual assessments and yearend analyses are performed as
   required.

   Agency Response

   FSA officials agreed with this recommendation and stated that the ability to track annual
   assessments and yearend analyses to determine compliance was implemented in the Direct
   Loan Servicing automated system in April 2010. In cases where insufficient resources
   (personnel or travel funding) to ensure completion of required annual assessments and
   yearend analyses are identified and documented, FSA will prioritize the completion based on
   highest to lowest risk and document the basis for each low risk priority determination. To
   implement these revisions, FSA will revise the appropriate handbook by September 1, 2010.

   Subsequent to our receipt of the FSA written response, dated June 30, 2010, we sought
   clarification from FSA regarding the controls established to ensure timely completion of the
   required annual assessments and yearend analyses. On July 12, 2010, an FSA official
   clarified that effective in April 2010, the Direct Loan Servicing system began providing
   county office staffs with monthly task calendars that included any required assessments and
   yearend analyses. If these tasks cannot be completed because of the lack of resources or
   other reasons, county office staffs would prioritize and complete these as outlined in the
   written response. To provide the necessary control, DDs are responsible for reviewing the
   county office staffs’ actions during their annual operations reviews.

   OIG Position

   We accept management decision for this recommendation.




Audit Report 03601-18-Ch                                                                       15
Scope and Methodology
We performed our audit fieldwork from April 2008 through September 2009 at the FSA national
office in Washington, D.C.; 3 FSA State offices located in Arkansas, Kentucky, and Michigan;
and 36 county offices in the 3 States. (See exhibit A.)

We judgmentally selected the States of Arkansas, Kentucky, and Michigan for review because
we wanted to include a variety of crops and property used for loan collateral. Direct OL volume
and delinquency rates were also used as criteria to select the States. The 3 States combined
maintained a portfolio of over 8,200 direct OLs with a total obligation value of more than
$332.7 million as of May 31, 2008. A total of 71 39 direct OLs were randomly selected for
review. 40 The 71 loans we reviewed totaled more than $3.1 million in FSA-obligated funds.
We visited the FSA county offices that serviced the selected loans to interview appropriate FSA
officials and to review borrowers’ loan files. We reviewed the applicable borrowers’ loan files
to determine whether (1) loan collateral inspections were performed as required,
(2) unauthorized dispositions of loan collateral were properly serviced and required enforcement
actions taken, (3) assessments of borrowers’ operations were completed as required, and
(4) releases of loan security for essential family living and farm operating expenses were proper.
We also visited the borrowers’ farms associated with each selected loan to inspect the loan
collateral. Additionally, we evaluated the loan servicing and loan collateral for any FO loans
that were held by any of the selected borrowers by reviewing the borrowers’ loan files and
visiting the borrowers’ farms to inspect the loan collateral. This resulted in the review of 26 FO
loans totaling approximately $2.5 million in FSA-obligated funds. The audit covered
FYs 2007 and 2008. We included previous fiscal years when determined necessary.

We interviewed agency officials and reviewed regulations, policies, and procedures to gain an
understanding of FLP requirements, including loan collateral requirements. At the FSA national
office, we identified and assessed controls and oversight responsibilities relating to loan
collateral. At the FSA State and county offices, we evaluated controls to ensure that releases of
loan collateral were made in accordance with regulatory requirements, and we determined
whether inspections were timely conducted and annual assessments of borrowers’ operations
were properly completed. We performed 71 onsite farm visits to verify loan collateral. In the
18 identified cases where borrowers had sold or otherwise disposed of loan collateral without
FSA authorization, we evaluated the adequacy of FSA’s servicing and enforcement actions and
assessed agency officials’ compliance with the applicable regulations. We also reviewed FSA’s
oversight processes to determine their effectiveness at disclosing noted deficiencies.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards issued by the Comptroller General of the United States, and in accordance


39
   One of the direct operating loans selected had recently been the subject of an OIG investigation. The case had been adjudicated and the
   borrower found guilty of converting FSA loan collateral. The loan was retained as part of our random sample so we could confirm the status
   of the remaining collateral property.
40
   We statistically selected an unrestricted random sample, also called a simple random sample, from the combined listing of operating loans in
   the three states tested. Since we are not making any statistical projections based on this sample, we did not include the full statistical sampling
   methodology as an exhibit to the report.



Audit Report 03601-18-Ch                                                                                                                         16
with the Office of Inspector General policies and procedures in IGM-7314 (September 2007).
Those standards required that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on the audit objectives.




Audit Report 03601-18-Ch                                                                     17
Abbreviations
CFR          Code of Federal Regulations
CORP         County Operations Review Program
DD           District Director
DDORS        District Director Oversight Reporting System
FLC          Farm Loan Chief
FLP          Farm Loan Programs
FLPRA        Farm Loan Program Risk Assessment
FO           Farm Ownership Loan
FSA          Farm Service Agency
FY           Fiscal Year
OL           Operating Loan
SED          State Executive Director




Audit Report 03601-18-Ch                                    18
Exhibit A: Summary of Loan Reviews



                                                 Arkansas                 Kentucky                 Michigan                    Totals

Number of Loans
                                                        23                       28                       20                       71
Sampled

County Offices Visited                                  10                       15                       11                       36




Findings:

Missing Loan Collateral                                  3                        5                       10                     18 41


Lack of FSA Inspection                                   5                        7                        3                       15


No FSA Assessment                                        7                        3                        3                       13


No FSA Yearend
                                                         4                        2                        2                       8
Analysis


The table above details the number of county offices and number of loans sampled in each of the
three States visited. It also details the specific deficiencies we identified in each State.




41
     One of the direct operating loans selected and reviewed had recently been the subject of an OIG investigation. The case had been adjudicated
     and the borrower found guilty of converting FSA loan collateral. The loan was retained as part of our random sample so we could confirm the
     status of the remaining collateral property.


Audit Report 03601-18-Ch                                                                                                                    19
Agency’s Response




                           USDA’S




                    FARM SERVICE AGENCY




            RESPONSE TO AUDIT REPORT




Audit Report 03601-18-Ch                  20
United States        DATE:          June 30, 2010
Department of
Agriculture
                     TO:            Assistant Inspector General for Audit
Farm and Foreign                    Office of Inspector General
Agricultural
Services
                     FROM:          Philip Sharp
Farm Service
Agency                              Agency Liaison Officer
Operations Review
                                     for the Farm Service Agency
and Analysis Staff

1400 Independence
                     SUBJECT:       Response to Audit 03601-18-CH: Controls and Oversight of Farm Loan
Ave, SW                             Collateral
Stop 0540
Washington, DC
20250-0540           This is the Farm Service Agency’s (FSA) response to your May 4 memorandum requesting
                     comments on the official draft report of the subject audit.

                     Recommendation 1

                     Remind field offices to document shortages of loan collateral found during farm visits and
                     to properly follow post-approval procedures.

                     Agency Response

                     Changes are being implemented in Handbooks 1-FLP-1 and 4-FLP to make oversight of
                     unauthorized disposition of collateral a part of the District Director’s regular duties. Farm
                     Loan Managers will be required to report all discoveries of such dispositions to the District
                     Director, who will be responsible for following up by reviewing post-approvals and/or
                     borrower repayments to ensure that all applicable regulations have been followed. These
                     Handbook revisions are expected to be issued before the end of June, and FLP will also
                     issue a Notice to call the attention of all District Directors and Farm Loan Managers to
                     these changes.

                     Recommendation 2

                     Design and implement an automated system capable of recording unauthorized
                     dispositions for tracking purposes, or incorporate this capability into an existing system.
                     In the interim, require county officials to maintain a manual log of all cases where
                     unauthorized dispositions are disclosed by inspection or other means.

                     Agency Response

                     In the short term, a manual system will be established through the Agency actions noted in
                     (1), above. This function is scheduled for incorporation into the Direct Loan Servicing
                     (DLS) automated system during Phase III of the DLS implementation, in 2013.
Assistant Inspector General for Audit
Page 2

Recommendation 3

Strengthen the oversight review process that post-approvals of unauthorized dispositions
are being identified and reviewed to evaluate whether these post-approvals are justified.
Implement a follow-up process to ensure that any required corrective actions are taken.

Agency Response

As noted in (1), above, this is being made an oversight responsibility of FSA District
Directors, who will review post-approvals for compliance with applicable regulations.

Recommendation 4

Establish controls to ensure that FSA county officials perform required annual inspections
of loan collateral.

Agency Response

The ability to track and determine compliance with required annual inspections was made
available to FSA in April 2010 as part of the DLS automated system. This system allows
State Executive Directors and Farm Loan Chiefs to determine compliance by County
Offices in their respective States. In situations where non-compliance is identified, FSA
will ensure county officials complete required annual inspections. However, in cases
where FSA has documented insufficient resources (personnel or travel funding) to ensure
completion of all identified noncompliant annual inspections, FSA will:

   •   Prioritize the completion of annual inspections based on highest to lowest risk and
       ensure completion of all annual inspections in the order of risk priority, subject to
       the resources available.

   •   Instruct field staff to document the basis for a low priority determination in the file
       for those cases determined to be a low priority for review.

These changes will be implemented by revisions to the appropriate FSA handbook by
September 1, 2010.

Recommendation 5

Establish controls to ensure that annual assessments and year-end analyses are performed
as required.

Agency Response

The ability to track and determine compliance with required annual assessments and year-
end analyses became available with implementation of the routine servicing module of
Assistant Inspector General for Audit
Page 3

DLS automated system in April, 2010. The required updates of annual assessments are
documented in the Farm Business Plan for each borrower, and that information will be
capture in the DLS system by the end of 2010. To the extent resources will allow, FSA
will ensure annual assessments and year-end analyses are completed. In situations where
non-compliance is identified, FSA will ensure county officials complete required annual
assessments and year-end analyses. However, in cases where FSA has documented
insufficient resources (personnel or travel funding) to ensure completion of all identified
noncompliant assessments and year end analyses, FSA will:

   •   Ensure completion of all annual assessments and use the assessments to establish
       priorities for the completion of year-end analyses based on the established
       handbook criteria.

   •   Instruct field staff to document the basis for a low priority determination for year-
       end analyses in the annual assessment.

These changes will be implemented through revisions to the appropriate FSA handbook by
September 1, 2010.
